          U.S. Department of Labor
          Office of Inspector General
                Office of Audit




                   Audit of
 Ohio’s Workforce Investment Program
Audit Period: July 1, 2000 through June 30, 2002




                              Report Number: 05-04-004-03-390
                              Date Issued: March 31, 2004
Audit of Ohio’s Workforce Investment Program



                                                   Table Of Contents
                                                                                                                           Page
Executive Summary..............................................................................................................1

Audit Results .........................................................................................................................3

Findings and Recommendations

           1. Inadequate Accounting System Controls Resulted in
              Financial Status Reports Not Accurately Reflecting
              Financial Operations............................................................................................ 4

                A. PY 2000 Statewide Activities Costs Exceeded the
                   Administrative Cost Limitation .................................................................... 4
                B. Local Administrative Costs Were Reported as
                   Program Costs .............................................................................................. 7
                C. Financial Records Did Not Support All Expenditures
                   Claimed on the FSRs ................................................................................... 8

           2. Lack of Management Controls Over the Time
              Reporting System Reduces the Reliability of Time Records ............................ 10

           3. Inadequate Participant Activity Reporting System Resulted in
              Unreliable Participant Activity Reports .............................................................12

           4. Improper Designation of LWIA Number 7 ...................................................... 14

           5. Performance Measures Not Negotiated With LWIAs ....................................... 16

           6. Lack of Required Partners and Core Services at Some
              Comprehensive One-Stops ............................................................................... 18

Exhibits

           A. Evaluation of Ohio’s Implementation of WIA .................................................. 21
           B. Assessment of Corrective Actions Taken by ODJFS on Issues
              Cited by ETA..................................................................................................... 23

Appendices

           A.   Background and Criteria.................................................................................... 33
           B.   Objectives, Scope, and Methodology ................................................................ 35
           C.   State of Ohio Workforce Investment Areas....................................................... 38
           D.   Summary of Financial Status Reports as of June 30, 2002 ............................... 39
           E.   Acronyms/Abbreviations ................................................................................... 40
           F.   Ohio’s Response to Draft Report ....................................................................... 41


                                                                    i
Audit of Ohio’s Workforce Investment Program



                                  Executive Summary

The Office of Inspector General conducted a performance audit of Ohio’s implementation of
the Workforce Investment Act of 1998 (WIA). The Ohio Department of Job and Family
Services (ODJFS), which administers the WIA program for Ohio, reported expenditures of
$156 million out of $240 million authorized to operate the program for the period
July 1, 2000 through June 30, 2002.

Our objectives were to:

       determine compliance with critical provisions of WIA, and
       assess the corrective actions taken by Ohio to address issues cited by the
       Employment and Training Administration (ETA).

Exhibit A summarizes Ohio’s implementation of 17 critical provisions of WIA. Only seven
of these elements were in full compliance with WIA more than 2 years after they were to be
in place. Exhibit B details the status of corrective action on 40 issues identified by ETA in
October 2001 after reviewing Ohio’s program. Only 15 (37.5 percent) of these issues were
completely corrected at the end of our audit fieldwork in November 2002. While
completing these assessments, we identified questioned costs of $9.3 million and the
following instances of material noncompliance with WIA and significant weaknesses in
management controls:

       Inadequate accounting system (Finding 1)

       Lack of controls over the time reporting system (Finding 2)

       Inadequate participant activity reporting system (Finding 3)

       Improper designation of local areas (Finding 4)

       Performance measures not properly negotiated (Finding 5)

       Missing partners and incomplete services at Comprehensive One-stops (Finding 6)

We issued a discussion draft report to ODJFS on September 30, 2003, and subsequently
conducted an exit conference on October 28, 2003. ODJFS provided documentation
regarding corrective actions it had taken in response to the findings we reported in our
discussion draft. Based on this information, we have resolved or closed findings and
recommendations where appropriate. We also determined that Ohio was in compliance with
one additional critical provision of WIA (for a total of eight). We updated our assessment of
the status of corrective actions on the 40 issues identified by ETA in its October 31, 2001
letter to -- 16 (40 percent) have been completed, 12 (30 percent) are pending, and 12 (30
percent) have not been resolved.



                                               1
Audit of Ohio’s Workforce Investment Program




After considering ODJFS’s corrective actions, the following recommendations remain
outstanding, and, therefore, we recommend that the Assistant Secretary for Employment and
Training:

           ensure ODJFS submitted a Financial Status Report (FSR) or the period ending
           September 30, 2002, that reduces administrative costs claimed to an amount
           within the administrative cost limitation;
           direct ODJFS to improve accounting controls to ensure the administrative cost
           limitation is not exceeded;
           direct ODJFS to implement procedures to ensure employees and coordinators are
           complying with guidelines for the Random Moment Sampling (RMS) time
           studies;
           direct ODJFS to reconfigure Local Workforce Investment Area (LWIA)
           Number 7; and
           direct ODJFS to provide the required partners and core services at
           Comprehensive One-stops.

ODJFS officials response to our draft report indicated that they were in overall agreement
with our findings and recommendations, and identified steps they have taken or plan to take
to address the recommendations. ODJFS officials provided their response to each finding as
part of a copy of the entire report narrative. Therefore, we have not provided the state’s
response as an attachment. We have included their responses within each finding in the
report.




                                               2
Audit of Ohio’s Workforce Investment Program




                                       Audit Results

After 2 years of operation, Ohio’s Workforce Investment Act (WIA) program was still not
fully implemented or in compliance with program requirements. The program had material
weaknesses in 41 percent of the elements that the Department of Labor’s (DOL)
Employment and Training Administration (ETA) considered necessary for a fully
implemented WIA system. Those deficiencies resulted in inaccurate accounting and
reporting, unreliable participant activity reporting, and inefficient delivery of services. Also,
a year after ETA had issued a monitoring report, Ohio had not completed corrective actions
related to 25 issues of noncompliance or nonperformance. ETA should require Ohio to
identify specific actions and completion dates for implementation of all program elements
and correction of previously identified deficiencies.

On June 13, 2000, ETA issued guidance to all states listing 17 elements of a fully
implemented WIA System. We evaluated Ohio’s compliance with these critical provisions
of the WIA program. Ohio was in compliance with only seven of these elements. We found
material deficiencies in Ohio’s program pertaining to seven elements; these are addressed in
our six Findings and Recommendations, beginning on page 2. We discussed minor
concerns pertaining to the remaining three elements with Ohio management during
fieldwork. Exhibit A, beginning on page 19, details our evaluation of each of the
17 elements.

On October 31, 2001, officials in the ETA Chicago Region issued a letter to the Ohio
Department of Job and Family Services (ODJFS) outlining areas of noncompliance and non-
performance in operating the Ohio WIA program. ODJFS began a series of corrective
actions to address the deficiencies cited by ETA and provided ETA with progress reports
detailing its efforts to correct the areas of noncompliance and nonperformance. We assessed
the status of corrective actions on 40 issues identified by ETA. Of these items, only 15
(37.5 percent) had been completed, 13 (32.5 percent) were pending, and              12 (30
percent) had not been resolved. Exhibit B, beginning on page 21, details our assessment
and status of each of the ETA reported issues.

We issued a discussion draft report to ODJFS on September 30, 2003, that identified $9.3
million in questioned costs and five administrative findings. We subsequently conducted an
exit conference on October 28, 2003. ODJFS provided documentation regarding corrective
actions it had taken in response to the findings we reported in our discussion draft. Based on
this information, we have resolved or closed findings and recommendations where
appropriate. We also determined that Ohio was in compliance with one additional critical
provision of WIA (for a total of eight). We updated our assessment of the status of
corrective actions on the 40 issues identified by ETA in its October 31, 2001 letter to -- 16
(40 percent) have been completed, 12 (30 percent) are pending, and 12 (30 percent) have not
been resolved.




                                               3
Audit of Ohio’s Workforce Investment Program



                             Findings And Recommendations

The Ohio Department of Job and Family Services (ODJFS) had not fully complied with all
the critical provisions of WIA more than 2 years after they were to be in place. ODJFS’s
financial and participant reporting systems provided unreliable data and did not accurately
reflect financial operations or program outcomes. Our audit of the WIA program disclosed
several factors that impacted ODJFS’s ability to administer the WIA program, as noted in
the following findings and recommendations:


1.       Inadequate Accounting System Controls Resulted in Financial Status Reports Not
         Accurately Reflecting Financial Operations

ODJFS submitted Financial Status Reports (FSRs) that did not accurately reflect its financial
operations. The ODJFS accounting system lacked controls to produce accurate FSRs. As a
result:

     •    Program Year (PY) 2000 Statewide Activities costs exceeded the administrative cost
          limitation; ($1,150,441)
     •    Local administrative costs were reported as program costs; ($7, 274,396) and
     •    Financial records did not support all expenditures claimed on the FSRs. ($917,376)

Section 667.200 of Code of Federal Regulations (CFR) 20 states:

            . . . . States,. . . that receive grant or cooperative agreements under WIA
            Title I must follow the common rule . . . which is codified at 29 CFR
            Part 97.

Section 97.20(a) of CFR 29 states:

            (1) Financial reporting. Accurate, current, and complete disclosure of the
            financial results of financially assisted activities must be made in
            accordance with financial reporting requirement of the grant or subgrant.

          A.     PY 2000 Statewide Activities Costs Exceeded the Administrative Cost
                 Limitation

ODJFS’s lack of controls in its accounting system allowed administrative costs incurred at
the state level to be reported in excess of the allowable amount. WIA mandates that no
more than one third (.05/.15) of the authorized funding for statewide activities be used for
administrative expenses.




                                                 4
Audit of Ohio’s Workforce Investment Program



Section 667.210 of CFR 29 states:

         (a) Formula grants to States:
         (1) As part of the 15 percent that a State may reserve for Statewide
         activities, the State may spend up to five percent (5%) of the amount
         allotted . . . for the administrative costs of Statewide workforce
         investment activities.

Our review of PY 2000 statewide activities revealed ODJFS exceeded the limitation for
administrative costs, as calculated below:

              PY 2000 Statewide Activities Authorization           $ 9,297,410

              Administrative Costs Reported On FSR                 $ 4,249,578
              Administrative Cost Limitation ($9,297,410 X 33%)      3,099,137
              Exceeded Allowable Amount                            $ 1,150,441

When Ohio merged two departments (Ohio Bureau of Employment Services (OBES) and
Ohio Department of Human Services (ODHS)), ODJFS’s WIA program began participating
in large cost pools, which included many shared expenses involving several bureaus and
offices. Although WIA’s overall percentage of the pool was small, the effect on the WIA
program budget was significant and resulted in WIA administrative expenses exceeding the
amount allowable under the law.

Additionally, during the initial implementation of WIA, ODJFS’s accounting system was
not designed to track administrative costs separately from program costs. However, several
months after the program started, the State modified its accounting system to separately
identify administrative costs. Even though the State began capturing and tracking
administrative costs, it did not strengthen controls to ensure that reported costs did not
exceed the cost limitations.

In response to the $1,150,441 questioned costs in our discussion draft report and our exit
conference, ODJFS officials provided a FSR for the period ending September 30, 2002,
which showed that administrative costs claimed had been reduced to $3,099,137 in
accordance with the administrative cost limitation. However, ODJFS still needs to
implement controls to preclude future charges from being reported that are in excess of
allowable amounts.


Recommendations:

We recommend that the Assistant Secretary for Employment and Training ensure that:
(1) ODJFS has submitted a FSR for the period ending September 30, 2002, that reduces
administrative costs claimed to an amount within the administrative cost limitation, and (2)
ODJFS has implemented controls to preclude charges from being reported that are in excess
of allowable amounts.


                                               5
Audit of Ohio’s Workforce Investment Program



State Response:

The state acknowledged that the PY 2000 administrative funding filed as of June 30, 2002,
exceeded the 5 percent limitation. The state corrected its filing methodology for the
5 percent and 10 percent administrative funding effective with the September 30, 2002,
quarterly reports.

Auditor’s Conclusion:

We reviewed ODJFS’s September 30, 2002, FSR which reduces administrative costs for
PY 2000 by $1,150,441 and consider the questioned costs related to recommendation (1) to
be resolved. To close this recommendation, ETA officials need to notify us that they have
reviewed and approved the revised September 30, 2002, FSR. ODJFS provided no evidence
that controls have been implemented to preclude future charges from being reported that are
in excess of allowable amounts; consequently, recommendation (2) remains unresolved.




                                               6
Audit of Ohio’s Workforce Investment Program



       B.      Local Administrative Costs Were Reported as Program Costs

ODJFS’s lack of control over expenditure reporting permitted administrative costs to be
incorrectly reported as program costs. ODJFS’s financial system routinely allocated sub-
recipients administrative costs to program costs.

Section 667.220 of CFR 20 requires any costs associated with the general administrative
functions and the coordination of those functions be charged to administration and subject to
the administrative cost limitations. Our review of ODJFS’s financial records revealed that
shared costs such as salaries, rent, supplies, etc. for the subrecipients’ administrative staff
were pooled and then distributed to program categories.

We determined that the following administrative costs were misclassified as program costs
through June 30, 2002.

                                                   Administrative Costs
                                                   Reported as Program
                            Program                       Costs
                    Youth                                      $1,828,508
                    Adult                                       3,718,602
                    Dislocated Worker                           1,727,286
                    TOTAL                                      $7,274,396

According to ODJFS staff, the State did not have a mechanism for charging local
administrative costs. As a result, administrative costs were charged to program costs
through the Social Services Apportioned Cost based on full-time equivalent positions.

In response to $7.2 million questioned in our discussion draft report, ODJFS officials
provided accounting records for the period ending June 30, 2003. Although our audit period
ended June 30, 2002, we examined the more current information. The June 30, 2003,
records provided reflect that local administrative costs are being properly charged to the
FSRs. Since WIA is a multi-year funded program and the amount shown for
June 2003 is cumulative, which includes June 30, 2002 costs, we are satisfied that
June 30, 2002 charges are corrected and administrative costs are now being properly
charged. This finding is resolved and closed.




                                               7
Audit of Ohio’s Workforce Investment Program



       C.      Financial Records Did Not Support All Expenditures
               Claimed on the FSRs

ODJFS’s lack of controls for reporting expenditures allowed costs to be reported that were
not supported by its financial records. Our review disclosed that financial records did not
support $917,376.

Section 97.20(b)(1) of CFR 29 states:

         Financial Reporting. Accurate, current, and complete disclosure of the
         financial results of financially assisted activities must be made. . . .

During the initial phase of the WIA program, ODJFS faced several challenges as a result of
the merger of two agencies (ODHD and OBES) and the implementation of a new financial
and reporting structure to address WIA reporting requirements. ODJFS procedures direct
counties and the City of Cleveland to report expenditures using the Central Office Reporting
System (CORe). Although WIA requires expenditures to be reported by Federal
appropriation year, counties were reporting expenditures to the ODJFS based on the State
fiscal year. Consequently, when ODJFS received the expenditure amounts, it was difficult
to associate the expenditures with the appropriate Federal appropriations. ODJFS
recognized the problem and took steps to remedy it in the latter part of Calendar Year 2001
by reconstructing expenditures from the beginning of the program and making some design
changes to the CORe. The reconstructed expenditures differed from the original amount
reported, thereby necessitating adjustments to the financial data.

WIA is a multi-year funded program and states are encouraged to use the earliest
appropriation first. ODJFS attempted to apply the “first-in first-out” (FIFO) method to
expenditures by reviewing the earliest appropriations to determine if the funding
authorization had been exhausted.

ODJFS made numerous transfers and adjustments in an effort to use the FIFO method to
report expenditures and correct amounts previously reported. Our review disclosed that
transfers, adjustments and the movement of expenditures from one appropriation to another
resulted in some appropriations having less costs than what was reported while others
exceeded the amount reported. Other factors that contributed to the differences included
posting errors and ODJFS adapting to WIA reporting requirements. The chart on the
following page depicts the programs and funding years in which we noted differences
resulting from posting errors and transfers.




                                               8
Audit of Ohio’s Workforce Investment Program




                                                         Expenditures
                                      Expenditure            Per
                              Funding Reported per        Accounting
           Program             Year      FSR               Records        Difference
     Statewide Activities     FY 2001 $ 4,155,616       $    3,952,339    $ 203,277
     Rapid Response           PY 2000    1,678,019             325,779      1,352,240
     Local Admin              PY 2000    4,930,350           4,009,653        920,697
     Local Admin              FY 2001    3,202,500           2,887,635        314,865
     Local Admin              PY 2001    4,360,963           2,624,905      1,736,058
     Local Admin              FY 2002    1,343,708           1,501,272      (157,564)
     Youth                    PY 2000   30,726,088          31,053,532      (327,444)
     Youth                    PY 2001   18,482,618          17,428,316      1,054,302
     Adult                    PY 2000    7,184,548           6,104,852      1,079,696
     Adult                    FY 2001   21,117,071          21,580,146      (463,075)
     Adult                    PY 2001    8,267,555          13,077,271    (4,809,716)
     Adult                    FY 2002    9,189,635           7,346,784      1,842,851
     Dislocated Worker        PY 2000    6,044,125           3,129,831      2,914,294
     Dislocated Worker        FY 2001   10,687,934          12,013,932    (1,325,998)
     Dislocated Worker        PY 2001    4,788,159           9,444,839    (4,656,680)
     Dislocated Worker        FY 2002    5,632,190           4,392,617      1,239,573
     TOTAL                            $141,791,079      $ 140,873,804     $ 917,376

Certain WIA expenditures are allowable under different appropriations. We believe that
some of the expenditures reported in excess of the amount supported by the accounting
records are allowable under other appropriations where accounting records show more than
the reported amount. Therefore, we are only concerned about the net difference of
$917,376.

Following our discussion draft report, which questioned the $917,376, and our exit
conference, ODJFS officials provided financial records ending in June 30, 2003, which they
believe demonstrate that ODJFS financial records reconcile with the FSR. We reviewed the
documentation provided and found that the June 30, 2003 records reconciled. Because WIA
is a multi-year funded program and the amount shown for June 2003 is cumulative, which
encompasses June 30, 2002 costs, we are satisfied that the necessary adjustments affecting
the program funding listed above have been addressed. This finding is resolved and closed.




                                               9
Audit of Ohio’s Workforce Investment Program



2.     Lack of Management Controls Over the Time Reporting System Reduces the
       Reliability of Time Records

Some LWIAs employees were not completing time studies in accordance with guidelines.
Time studies are ODJFS’s mechanism for allocating employees’ payroll costs to the various
program activities. Under WIA, payroll costs account for the bulk of the costs associated
with administering the grant. Using incorrect time application will result in improper
allocation of costs to DOL grants.

Office of Management and Budget (OMB) Circular A-87 provides several substitutes for
activities reports to measure employment efforts and allocate salaries and wages. Under the
Compensation for Personnel Services Section, OMB identifies Random Moment Sampling
(RMS) as an acceptable and quantifiable method to measure employment efforts. ODJFS
uses RMS in accordance with the OMB directive.

Time studies referred to as RMS are used by ODJFS to measure subareas’ staff activities for
various programs. The time studies are completed on a quarterly basis and the number of
time studies completed varied based on the number of the organization’s employees that
needed to be included in the time studies. ODJFS uses data collected from the time studies
to calculate the percentage of time spent on each program. The percentages are then used to
distribute funds to the various programs and activities. Time studies are performed through
observation forms that are distributed to selected workers.

ODJFS’s Administrative Procedure Manual for the time studies requires the observation
form to be distributed to the selected worker at or near the moment specified in the sample.
ODJFS provides some flexibility by allowing the forms to be distributed in the morning.
However, selected workers are required to complete the form at the moment recorded on the
observation form.

Our review disclosed instances where the forms were completed well after the time recorded
on the observation form. We audited time studies for staff at the three sites visited whose
job responsibility includes servicing WIA participants. Our audit entailed selecting a time
of day to review the observation forms and ascertaining whether the form should have been
completed at the time of the evaluation. We found that:

       At one of the LWIAs, the RMS Time Study Coordinator attended a job fair the day
       we reviewed the RMS system and had not distributed the observation forms when we
       went to perform the evaluation. However, the forms were distributed later that day
       when she returned. Nevertheless, the moment the form needed to be completed had
       passed for 8 of the 10 workers selected. We repeated the test the following day and
       all the forms appeared to be completed according to guidelines.

       At one of the subareas, neither of the two workers selected completed the forms in
       accordance with guidelines. One had missed the designated time by 40 minutes
       while the other missed the time by three and a half hours.



                                               10
Audit of Ohio’s Workforce Investment Program



We believe that both instances occurred because there was a lack of proper oversight by
management personnel to ensure that employees were timely receiving and completing the
observation forms.

The purpose of time studies is to generate accurate statistics for work performed by the
agency so the data can be used to allocate cost pools. However, because the system
accuracy is predicated on employees recording their work activities at or near the moment
the form specifies, using incorrect time application will result in improper allocation of costs
to DOL grants.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct ODJFS to
implement procedures to perform unannounced reviews of the observation forms to ensure
employees and coordinators are complying with the Administrative Procedure Manual
guidelines for the RMS time studies.

State Response:

ODJFS officials stated they appreciate this recommendation and intend to implement
procedures to ensure the recommendation is followed.

Auditor’s Conclusion:

ODJFS officials stated their general agreement with the recommendation but provided no
description of their intended procedures nor a timeline for implementation. Our
recommendation remains unchanged.




                                               11
Audit of Ohio’s Workforce Investment Program



3.       Inadequate Participant Reporting Activity System Resulted in Unreliable
         Participant Activity Reports

ODJFS’s participant activity reporting system was flawed, causing it to produce inaccurate
and unreliable information. Consequently, data did not correctly measure the effectiveness
of the WIA program.

Section 667.300 of CFR 20 states:

         (a) General. All States and other direct grant recipients must report
         financial, participant, and performance data . . .
         (e) Annual performance progress report. An annual performance
         progress report for each of the three programs under Title I, subpart B is
         required . . .
              (2) States submitting annual progress reports that cannot be validated
             or verified as accurately counting and reporting activities . . . may be
             treated as failing to submit annual reports, and be subject to sanctions.

The above regulation requires each State to collect and report participant and performance
data for each of the three WIA programs (Youth, Adult, and Dislocated Workers). States
are also required to submit an annual performance progress report.

Although ODJFS submitted data for participant activities for PYs 2000 and 2001 in
accordance with Federal requirements, the data was unreliable because the system producing
the data was flawed. We reviewed 15 case files at each of the three sites visited and noted
differences between the files reviewed and the participant activity reports. State officials
acknowledged problems with the system, such as lack of data input by the counties, and data
fields changing without explanation. ETA also recognized problems with the data and
annotated its certifications to the National Office that the data was being certified even
though the reliability of the data was being questioned. Also, ODJFS is at risk of sanctions
because of the inaccurate participant information.

According to the State of Ohio Workforce Investment Act Title I-B Annual Report, ODJFS
utilized the OhioWorks/ServiceLink system as its primary participant data collection system.
OhioWorks was originally developed as an Internet-based system that matched welfare
recipients to employers. ODJFS modified the OhioWorks system to meet the Federal data
collection and reporting requirements of WIA. The internal segment of OhioWorks
consisted of an application named ServiceLink. ServiceLink provided case management
support for counties, as well as data collection and reporting for WIA. In an effort to make
it easier for WIA data entry, ServiceLink was further modified to create an application
called QuickLink.

After several unsuccessful efforts to make QuickLink comply with the WIA data collection
and reporting requirements, ODJFS decided to abandon QuickLink for another participant
information system labeled Share Career Operation Training Information (SCOTI) system.



                                               12
Audit of Ohio’s Workforce Investment Program



ODJFS believes SCOTI will comply with WIA’s reporting requirements when fully
implemented. SCOTI is a database system designed to support both WIA and Labor
Exchange activities in Ohio, and provide Federal mandated reports for each program.
During our fieldwork, we were informed that the ODJFS was in the final stage of
implementing SCOTI. Until SCOTI is fully developed and implemented, Ohio participant
information will be susceptible to data integrity problems and will not accurately portray the
State’s performance.

ODJFS officials provided an update on the progress of implementing SCOTI during our exit
conference in response to our discussion draft report. ODJFS officials stated that SCOTI is
fully implemented statewide and LWIAs have been working with converted files certifying
their accuracy. ODJFS officials indicated that the accuracy of performance data for
PY 2002 was validated and they were attempting to validate 2001. However, ODJFS has no
plans to validate PY 2000 performance data. ODJFS officials provided a memo from Social
Policy Research Associates (SPR), which stated that SRP assisted in verifying the accuracy
of the system’s calculation of performance measures. The data was from an extraction of
SCOTI for the period March 2003 through June 2003. SPR concluded that there were no
inconsistencies in the data verified.

Based on our review of the information provided by ODJFS, we consider the finding
resolved and closed.




                                               13
Audit of Ohio’s Workforce Investment Program



4.       Improper Designation of LWIA Number 7

WIA requires the Governor of each state to designate local workforce investment areas
within the state. LWIAs could be designed as General, Automatic, or Temporary. In
making a General designation, WIA Section 116 (1) (B) mandates certain factors be
considered so that services in local workforce investment areas are accessible to its citizens:

         (i) Geographic areas served by local educational agencies and
         intermediate educational agencies.
         (ii) Geographic areas served by postsecondary educational institutions
         and area vocational education schools.
         (iii) The extent to which such local areas are consistent with labor market
         areas.
         (iv) The distance that individuals will need to travel to receive services
         provided in such local areas.
         (v) The resources of such local areas that are available to effectively
         administer the activities carried out under this subtitle.

LWIA Number 7 was designated under the General designation, and encompasses
78 counties and two major cities (see Appendix C), which includes geography ranging from
Ohio’s most populous city to some of it most rural farmland and mining towns. With this
large disparity of economic and industry base, there is little consistency between labor
markets.

We noted that ETA had major concerns with the configuration of LWIA
Number 7. In a letter dated October 31, 2001, ETA stated, in part:

         The current . . . Area #7. . . doesn’t conform to any common-usage
         meaning of “local”.

We also noted during our review that ODJFS management acknowledged that the statewide
system originally configured in Ohio was not entirely consistent with the intent of the Act,
and ODJFS staff indicates that they are making incremental modifications to the system.
We believe that ODJFS’ willingness to work with ETA in an effort to comply with the intent
of the Act is a positive step and should be pursued to the fullest.

During our exit conference, ODJFS officials provided timelines for reconfiguring LWIA
Number 7 to comply with the Act by July 1, 2004. The timelines included dates for
coordinating board meetings, meeting with Chief Elected Officials, developing Local
Regional One-Stop plans, policies, agreements, and signing of Grant agreements. We
believe that ODJFS should achieve full compliance if it adheres to the timelines and execute
all actions as planned by July 1, 2004.




                                               14
Audit of Ohio’s Workforce Investment Program



Recommendation:

We recommend that the Assistant Secretary for Employment and Training ensure that
ODJFS adheres to its timeline for reconfiguring LWIA Number 7 to comply with the Act.

State Response:

ODJFS is on target with the timeline presented to OIG officials during the exit conference
and expects to complete the tasks as defined.

Auditor’s Conclusion:

This recommendation remains unresolved until evidence of corrective action is provided to
ETA.




                                               15
Audit of Ohio’s Workforce Investment Program



5.       Performance Measures Not Negotiated With the LWIAs

ODJFS did not negotiate performance measures with the LWIAs, thereby denying local
officials the opportunity to consider their economic situation and make realistic assessments
of their ability to achieve certain performance measures. Furthermore, ODJFS established
performance measures for local areas that they could not achieve, placing Ohio and its
LWIAs in jeopardy of sanctions.

During PYs 2000 and 2001, ODJFS required the LWIAs to meet the same performance
measures the State negotiated with ETA. In a letter dated June 8, 2000, ODJFS officials
wrote:

         The (USDOL) recently approved Ohio’s baseline data and proposed
         levels of performance for Program Years 2000 through 2003. We will be
         passing down the State negotiated level of performance to the Workforce
         Investment Area and/or Sub Area (WIA/SA). The State’s negotiated
         level of performance is for the first three years of the Workforce
         Investment Act (WIA). For these reasons, Ohio has decided not to
         negotiate levels of performance with each Workforce Investment Area
         and/or Sub Area (WIA/SA).

WIA, Section 136(c), states:

         (2) LOCAL LEVEL OF PERFORMANCE. – The local board, the chief
         elected official and the Governor shall negotiate and reach an agreement
         on the local levels of performance based on the State adjusted levels of
         performance established under subsection (b).

         (3) DETERMINATIONS. – In determining such local levels of
         performance, the local board, the chief elected official, and the Governor
         shall take into account the specific economic, demographic, and other
         characteristics of the populations to be served in the local area.

According to ODJFS officials, WIA did not define negotiation, and the Job Training
Partnership Act (JTPA) data used to negotiate the State measures is the same data available
at the local level. The State data is an aggregate of the local areas data. Furthermore,
because the State had committed to the performance measures, local areas could not
negotiate lower measures or it would be impossible for the State to meet its commitment.
Moreover, the local areas did not object to the performance measures.

We believe the provisions as described above clearly indicate that the intent of the Act was
for local officials to be more involved in establishing achievable performance standards.
More importantly, the measures were to be used as a foundation to build upon.

Under WIA, sanctions occur if a state fails to meet its goals. ETA guidelines set sanctions at
performance below 80 percent of negotiated performance level. The State of Ohio passed


                                               16
Audit of Ohio’s Workforce Investment Program



this requirement down to the LWIA. Our review of the LWIAs achievements1 disclosed that
they had difficulties meeting the performance standards placed on them.

For PY 2000, 6 of Ohio’s 7 LWIAs failed to achieve 80 percent for 6 or more of the 17
established performance measures. Likewise, all of Ohio’s LWIAs failed to obtain
80 percent for seven or more of the performance measures in PY 2001. We further analyzed
PY 2001 performance for LWIA number 7, which consists of 68 subareas. We selected
25 of the 68 subareas and found that 20 of the 25 failed to achieve 80 percent on 10 or more
of the performance measures.

Since local officials are more knowledgeable about economic conditions affecting their area
and their ability to reach performance levels, they should have an active role in establishing
performance measures. Furthermore, WIA was designed on the premise of significant local
involvement. LWIAs need realistic measures to succeed and for Ohio to avoid sanctions in
the future.

During our exit conference, we were given documentation showing that ODJFS provided
local areas an option to adopt the same performance level as the State or submit alternate
levels of performance. Those areas that chose to adopt the state performance levels were
required to provide their decision in writing. According to ODJFS officials, no local area
requested a negotiation or change of the stated goals. ODJFS officials believe their efforts
comply with the WIA requirements. We agree. However, until letters are provided from
local areas accepting the same performance level, this finding is unresolved.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training ensure ODJFS
received letters from local areas showing their intentions to adopt the same performance
level, or evidence that it negotiated with the local areas to adapt alternate levels of
performance.




1
  Participant activity data provided by ODJFS was used for our analysis even though we have concerns
regarding the data’s integrity as noted in Finding Number 3.


                                                    17
Audit of Ohio’s Workforce Investment Program



6.       Lack of Required Partners and Core Services at Some Comprehensive
         One-Stops

Our review disclosed that some of the comprehensive one-stops were missing required
partners and core services, which hampered the integration of services at the local level.

Section 662.100 of CFR 29 states:

         (a) In general, the One Stop delivery system is a system under which
         entities responsible for administering separate workforce investment,
         educational, and other human resources programs . . . collaborate to
         create a seamless system of service delivery that will enhance access to
         the programs’ services. . . .

         (c) The system must include at least one comprehensive physical center in
         each local area that must provide the core services . . . and must provide
         access to other programs and activities carried out by the One-Stop
         partners.

Information we collected indicates that ODJFS has not aggressively encouraged or
supported all its LWIAs in establishing Comprehensive One-Stops that contain all required
partners core services. The chart below depicts the missing partners at four of the eight
LWIAs’ Comprehensive One-stops that we did not perform a site visit.

    WORKFORCE
 INVESTMENT AREA                                MISSING PARTNERS
                             Rehabilitation Act Programs
                             Community Service Block Grant Employment and Training
     LWIA Number 2           Housing and Urban Development Employment and Training
                             Job Corps
                             Senior Community Services
                             Community Service Block Grant Employment and Training
     LWIA Number 4           Housing and Urban Development Employment and Training
                             Unemployment Insurance
     LWIA Number 6           Rehabilitation Act Programs
                             Unemployment Insurance
                             Wagner-Peyser
     LWIA Number 8           Trade Adjustment Act and North American Free Trade
                             Agreement
                             Unemployment Insurance




                                               18
Audit of Ohio’s Workforce Investment Program



During our audit we visited LWIA Number 3 and evaluated its One-Stop operation. LWIA
Number 3’s Plan, and its Memorandum of Understanding (MOU), by reference to the local
plan, states:

       At the One-Stop Career Center, access to the programs of all required partner
       entities will be ensured through co-location of partner agency personnel.

Although LWIA Number 3’s local plan outlined co-location, some partners only made
periodic visits or conducted workshops. We believe this process falls short of the intent of
LWIA Number 3’s plan.

The table below illustrates the level of involvement of the deficient partners:

           Deficient Partners              Limited Involvement In One-Stop System*
     Programs authorized under           Present one day a week. No electronic
     Wagner-Peyser                       connection.
     Rehabilitation Act programs         Conduct workshops at the One-Stop
     Local veteran’s employment          Conduct workshops at the One-Stop and bring
     representatives and disabled        toiletries for homeless veterans.
     veterans outreach programs
     Community Services Block            No direct involvement. The
     Grant Employment and                One-Stop make some referrals.
     Training activities
     Programs authorized under           Staff comes once per week to show customers
     Ohio unemployment                   how to fill out an unemployment form.
     compensation laws
     Temporary Assistance for            None
     Needy Families (State
     Mandated)
         * Represents status at the completion of audit fieldwork in November 2002.

While analyzing other One-Stops, we were informed by LWIA Number 8’s staff that the
One-Stop Center refers customers to the employment security office 40 miles from the One-
Stop Center. Also, other LWIAs One-Stop Centers’ staff informed us that they refer
customers directly to the local offices of WIA partners because their partner staff only works
at the One-Stop Center once a week or once a month, or some other part-time arrangement.

The One-Stop system concept is predicated on unifying numerous training, education, and
employment programs into a single, customer friendly system. However, because all of the
WIA required partners’ core services are not present at the One-Stop Center, the One-Stop is
not effectively streamlining services through better integration at the street level.

ODJFS needs to do more within the framework of the Act to maximize the accessibility of
resources for individuals seeking assistance and create a seamless system of service
delivery.



                                                 19
Audit of Ohio’s Workforce Investment Program



Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct ODJFS to
bring its LWIAs’ Comprehensive One-Stops in compliance with WIA requirements.

State Response:

ODJFS has developed a One-Stop certification process and has provided extensive technical
assistance to ensure that the One-Stops will have an effective system of delivery to its
customers. The certification guide details all the elements necessary to be in compliance
with WIA.

Auditor’s Conclusion:

This recommendation remains unresolved until ETA is provided evidence the One-Stops are
in compliance with WIA requirements.




                                               20
Audit of Ohio’s Workforce Investment Program



                                                                                             Exhibit A

                     Evaluation of Ohio’s Implementation of WIA

      Elements Of A Fully Implemented                                OIG Assessment
         WIA System (ETGL 15-99)                                    As of October 2003
 1. State Board Has Been Appointed And Is           IN COMPLIANCE. The composition of the State
    Operational                                     Board was in accordance with WIA.
 2. All Local Areas Have Been Designated            DEFICIENT. ODJFS has designated all of it local
                                                    areas. Currently, the designation consists of seven
                                                    conventional areas and a strategic option area. We
                                                    found that the strategic option area, LWIA #7, didn’t
                                                    conform to WIA requirements. This issue is discussed
                                                    in detail in Finding Number 4.
 3. All Local Allocations Have Been Issued/Locals   MINOR DEFICIENCY. ODJFS did not issue
    Are Expending Funds In Accordance With          allocations to LWIAs. Instead, ODJFS allocated funds
    Their Plans                                     by county. Although we did not develop a finding in
                                                    this area, funds should be allocated to LWIAs through
                                                    grant agreements.
 4. All Local Plans Have Been Approved/Activities   IN COMPLIANCE. ODJFS has approved all local
    And Programs Are In Place                       plans. All local areas have activities and programs in
                                                    place.
 5. State List Of Eligible Providers Has Been       IN COMPLIANCE. ODJFS has developed and made
    Developed                                       available a list of eligible training providers.
 6. State/DOL Performance Goals Negotiations        IN COMPLIANCE. ODJFS met WIA requirements
    Have Been Completed                             for negotiating performance goals with DOL.
 7. State/Local Performance Goals Negotiations      DEFICIENT. ODJFS did not meet WIA requirements
    Have Been Completed                             for negotiating local performance goals. ODJFS limited
                                                    local involvement by dictating to local areas their
                                                    performance goals. ODJFS is in the process of
                                                    allowing LWIAs to submit alternate level of
                                                    performance.
 8. Performance Measurement And Reporting           DEFICIENT AS OF NOVEMBER 2002. ODJFS has a
    Systems Are In Place                            performance measurement and reporting system in
                                                    place. However, the system did not produce accurate
                                                    data thereby limiting the benefits derived from such
                                                    system. During our exit, ODJFS provided an update on
                                                    the new system that was implemented. We believe
                                                    that the implementation of SCOTI brought ODJFS
                                                    IN COMPLIANCE with WIA requirements
                                                    subsequent to our original audit work.

 9. State Is Providing Statewide Services As        IN COMPLIANCE. Overall, ODJFS is meeting this
    Required By 129(B)(2) And 134(a)(2),            requirement. ODJFS encountered problems obtaining
    including:                                      cost information for subsequent eligibility
      • State Rapid Response Activities             determination. However, ODJFS requested and was
      • widespread dissemination of State list of   granted a waiver for the requirement.
           eligible training providers, including
           performance and cost information
      • dissemination of State list of eligible
           youth activity providers.




                                                    21
Audit of Ohio’s Workforce Investment Program



                                                                                Exhibit A (Continued)

                     Evaluation of Ohio’s Implementation of WIA
      Elements Of A Fully Implemented                                 OIG Assessment
         WIA System (ETGL 15-99)                                     As of October 2003
 10. Financial Management Systems Are Operating      DEFICIENT. Financial systems are not operating in
    In Accordance With State And Federal             accordance with Federal requirements. Financial data
    Requirements                                     have not accurately reflected financial operations and
                                                     financial systems were not effective in preventing costs
                                                     from being claimed in excess of WIA’s administrative
                                                     cost limitation. Since our November 2002 assessment,
                                                     ODJFS has provided financial information that
                                                     suggests significant improvements in financial
                                                     operations. However, until accounting and reporting
                                                     systems for WIA funds are fully implemented at the
                                                     county level, we believe that ODJFS’s overall financial
                                                     management systems are not operating in accordance
                                                     with Federal/ State requirements. Exhibit B, Issue 5.
 11. All Local Boards Have Been Appointed And        DEFICIENT. All local boards were appointed but they
    Are Operational                                  are not all operating in accordance with WIA
                                                     guidelines. LWIA #7’s board has several issues that
                                                     need to be addressed. These issues are noted in our
                                                     assessment of corrective actions cited by ETA as
                                                     presented in Exhibit B, Issues 1a and 1b.
 12. All Local Youth Councils Have Been              MINOR DEFICIENCY. Most local youth councils
    Appointed And Are Operational                    have been appointed. However, some were missing
                                                     members that are required by law. LWIA #7 Board
                                                     delegated this requirement to the Workforce Policy
                                                     Board. This issue is being reviewed as part of the local
                                                     restructuring plan.
 13. All Local Boards Have Certified At Least one    IN COMPLIANCE. All the local boards have at least
    One-Stop Operator                                one certified One-Stop Operator.
 14. All Local Boards Have Executed MOUs             DEFICIENT. Many One-Stops were missing required
    Which Meet The Requirements Of 121(C)(2)         partners and therefore do not have MOUs for all
    With All Required Partners                       required partners. MOUs originally developed by the
                                                     local areas were inadequate. However, MOUs were
                                                     redone to include all the necessary provisions required
                                                     for valid agreements. This issue is discussed in more
                                                     detail in Finding Number 6.
 15. A Full Service One-Stop Center Is Operational   DEFICIENT. All local areas have designated a full
    In Each Local Area That:                         service One-Stop Center. However, all One-Stop
     • provides an integrated intake process         Centers did not have the required partners and core
     • provides core services                        services required under WIA. We found that five of
     • provides access to partner programs and       the One Stop Centers had missing or deficient partners.
          activities                                 This issue is discussed in more detail in Finding
     • makes intensive services accessible to        Number 6.
          adults and dislocated workers
     • provides ITAs to adults and dislocated
          workers
 16. All Ten Required Youth Program Elements         MINOR DEFICIENCY. Four local areas’ plans did
    Are Being Made Available In All Local Areas      not include all ten required youth program elements.
 17. Youth Providers Have Been Selected In           IN COMPLIANCE. Youth Providers have been
    Accordance With The Law And Regulations          selected in accordance with the law and regulations.


                                                     22
Audit of Ohio’s Workforce Investment Program



                                                                                                                 Exhibit B

                          Assessment of Corrective Actions Taken By
                                ODJFS on Issues Cited by ETA
                                                                                               OIG Assessment
    Issues Identified by ETA                         ODJFS Actions
                                                                                              As of October 2003
 1. Local Board for Area #7
 a. LWIA #7 Board has not                   LWIA #7 is currently in the process        PENDING. Steps to resolve this issue
    designated fiscal agent entities and    of restructuring the area and naming a     are in the planning stage. If ODJFS
    defined their roles.                    new fiscal agent.                          follows through, the issue should be
                                                                                       resolved.

                                                                                       STATE RESPONSE: The Fiscal
                                                                                       Agent will be selected at the next
                                                                                       Area #7 Workforce Investment Board
                                                                                       (WIB) meeting.

                                                                                       AUDITOR’S CONCLUSION:
                                                                                       ODJFS’s planned corrective action,
                                                                                       when completed, will resolve this
                                                                                       issue. We will consider this issue
                                                                                       resolved when evidence of corrective
                                                                                       action has been submitted to ETA.
 b. LWIA #7 Board has not:                  LWIA #7 Board delegated                    ALL 8 UNRESOLVED. ODJFS has
     •   appointed a youth council          requirement to the Workforce Policy        not resolved this issue.
         and competitively selected         Board. This issue is being reviewed
         youth program providers            as part of the local restructuring plan.   STATE RESPONSE: The intention
                                                                                       of the Area #7 WIB is that these
      •    selected service providers                                                  issues will be resolved by
           for adult and dislocated                                                    December 31, 2004.
           worker programs
                                                                                       AUDITOR’S CONCLUSION:
      •    drafted comprehensive                                                       ODJFS should continue to work
           MOUs for seamless                                                           diligently to resolve this issue as soon
           delivery of program                                                         as possible. We will consider this
           services.                                                                   issue resolved when evidence of
                                                                                       corrective action has been submitted
      •    certified One-Stop                                                          to ETA.
           operators.

      •    identified demand
           occupations for targeting
           training services.

      •    negotiated performance
           levels and specified levels
           for retention on the ETP list.

      • approved Individual Training
        Account (ITA)
        mechanisms/agreements for
        compensating training
        providers and recognizing
        exceptions.




                                                              23
Audit of Ohio’s Workforce Investment Program



                                                                                          Exhibit B (Continued)

                         Assessment of Corrective Actions Taken by
                               ODJFS on Issues Cited by ETA
                                                                                           OIG Assessment
    Issues Identified by ETA                       ODJFS Actions
                                                                                          As of October 2003
 2. Viability of Local Area #7 and its Sub-Areas
 LWIA #7 doesn't conform to WIA           Section 116(a)(1) (B), Items i and ii    UNRESOLVED. We believe that the
 because it isn’t served by local and     states that in making a designation of   language in the Act infers that the
 intermediate educational agencies; not   local areas this criteria should be      selection of LWIAs should be based
 served by postsecondary educational      considered. ODJFS does not see a         on those considerations, and failure to
 institutions and area vocational         requirement beyond the consideration     do circumvent the intent of the Act.
 schools; not consistent with labor       of these factors. When LWIA #7 was       However, we noted that ODJFS
 market areas; and not within             created these factors were considered.   indicated in its progress report that
 commuting distance for receipt of        It is ODJFS’s position that this         incremental modifications are being
 services.                                finding should be eliminated.            made to LWIA #7 to comply with
                                                                                   WIA requirements.

                                                                                   STATE RESPONSE:
                                                                                   Area #7 will be in compliance by
                                                                                   December 31, 2004.

                                                                                   AUDITOR’S CONCLUSION:
                                                                                   ODJFS should work diligently to
                                                                                   resolve this issue as soon as possible.
                                                                                   We will consider this issue resolved
                                                                                   when evidence of corrective action
                                                                                   has been submitted to ETA.
 3. Grant Management
 No grant agreement with LWIAs            Grant agreements have been executed      COMPLETED. Action taken by the
 composed of multiple counties. (The      with the LWIAs and counties.             agency resolves this issue. However,
 State informs each county of its         However, the State still informs         allocation of funds should be done by
 allocation.)                             counties of their allocations.           the LWIAs and included as part of the
                                                                                   agreement.
 4. Financial Management
 a. Insufficient budgetary and            The State’s current accounting system    PENDING. Some progress has been
    accounting controls over funds by     accounts for funds by year of            made. However, ODJFS continues to
    year of appropriation.                appropriation. The LWIAs, as well as     experience problems in this area.
                                          the sub-areas, report the required
                                          financial information on a quarterly     STATE RESPONSE: ODJFS
                                          basis                                    believes that sufficient systems for
                                                                                   budgetary controls over funds by year
                                                                                   of appropriation have been effectively
                                                                                   implemented.

                                                                                   AUDITOR’S CONCLUSION: We
                                                                                   cannot make a valid assessment
                                                                                   without further audit work.
                                                                                   Therefore, ETA should assess the
                                                                                   effectiveness of ODJFS’s systems for
                                                                                   budgetary controls over funds by year
                                                                                   of appropriation. We cannot consider
                                                                                   this resolved until there is verification
                                                                                   of the controls.




                                                           24
Audit of Ohio’s Workforce Investment Program



                                                                                             Exhibit B (Continued)

                          Assessment of Corrective Actions Taken by
                                ODJFS on Issues Cited by ETA
                                                                                              OIG Assessment
    Issues Identified by ETA                        ODJFS Actions
                                                                                             As of October 2003
 b. The State cannot use the FIFO          ODJFS has directed counties to use         COMPLETED. Action taken by the
    method at the State level to assign    the earlier funds first.                   agency resolves this issue.
    local expenditures by year of
    appropriation.
 c. Obligations are not recorded,          ODJFS now records, tracks and              COMPLETED. Action taken by the
    tracked, or reported at the State or   reports obligations at the State and       agency resolves this issue.
    local levels.                          local level.
 d. The cash management system does        ODJFS changed from a cash advance          COMPLETED. Action taken by the
    not minimize the amount of time        system to a cash draw system in July       agency resolves this issue.
    between cash drawdowns and             2002 to minimize the time lapse
    disbursements at the local level.      between drawdowns and
                                           disbursements.
 e. Ohio has no official mechanism to      ODJFS modified its accounting              COMPLETED. Action taken by the
    account for or report interest/other   system to report interest/other            agency resolves this issue.
    program income.                        program income.
 f. Ohio has no established                ODJFS modified the accounting              COMPLETED. Action taken by the
    procedures to report accrued           system to report accrued expenditures.     agency resolves this issue.
    expenditures.
 g. LWIAs do not account for local         LWIA #7 Board delegated this               UNRESOLVED. ODJFS has not
    area expenditures and do not           requirement to the Workforce Policy        resolved this issue.
    submit financial reports to the        Board. This issue is being reviewed
    State.                                 as part of the local restructuring plan.   STATE RESPONSE: ODJFS
                                                                                      concurs with this observation and is in
                                                                                      the process of implementing practices,
                                                                                      effective July 1, 2004, to resolve this
                                                                                      issue.

                                                                                      AUDITOR’S CONCLUSION:
                                                                                      ODJFS should continue to work
                                                                                      diligently to resolve this issue as soon
                                                                                      as possible. We will consider this
                                                                                      issue resolved when evidence of
                                                                                      corrective action has been submitted
                                                                                      to ETA.
 h. Non-reporting or late reporting        ODJFS continues to work with areas         PENDING. ODJFS is working to
    counties are omitted from the          that do not submit timely reports.         resolve this issue. However, the
    statewide expenditure report.          Ongoing technical assistance is            problem has not been completely
                                           provided and will continue until this is   resolved.
                                           no longer an issue.
                                                                                      STATE RESPONSE: ODJFS
                                                                                      continues to work on the issue which
                                                                                      should be resolved by July 30, 2004.

                                                                                      AUDITOR’S CONCLUSION:
                                                                                      ODJFS should continue to work
                                                                                      diligently to resolve this issue as soon
                                                                                      as possible. We will consider this
                                                                                      issue resolved when evidence of
                                                                                      corrective action has been submitted
                                                                                      to ETA.




                                                             25
Audit of Ohio’s Workforce Investment Program



                                                                                          Exhibit B (Continued)

                          Assessment of Corrective Actions Taken by
                                ODJFS on Issues Cited by ETA
                                                                                           OIG Assessment
    Issues Identified by ETA                       ODJFS Actions
                                                                                          As of October 2003
 5. Fund Accounting
 Accounting and reporting systems for     ODJFS recognizes the need for            PENDING. ODJFS is working to
 WIA funds do not exist at the county     accurate and timely fund accounting      resolve this issue. However, the
 level.                                   reporting. However, in many cases        problem has not been completely
                                          the areas have adequate fund             resolved.
                                          accounting systems that operate
                                          independently from CORe. This area       STATE RESPONSE: ODJFS
                                          will require additional State            continues to work on the issue which
                                          evaluation to ensure a comprehensive     should be resolved by July 30, 2004.
                                          response.
                                                                                   AUDITOR’S CONCLUSION:
                                                                                   ODJFS should continue to work
                                                                                   diligently to resolve this issue as soon
                                                                                   as possible. We will consider this
                                                                                   issue resolved when evidence of
                                                                                   corrective action has been submitted
                                                                                   to ETA.
 6. Cost Pooling and Random Moment Sampling (RMS)
 a. The RMS system, which the State       On-going training is held at the local   PENDING. ODJFS continues to
    uses to allocate cost from it costs   level to assure that time reporting is   utilize the RMS system as an
    pools, has very significant flaws     done in compliance with the rules and    approved method of measuring
    and is currently producing            regulations that support the RMS         employees efforts and allocating
    distorted results that will likely    system. We will continue to work         costs. Some improvements to the
    result in large amount of             with local entities on training of       systems are needed. We noted
    disallowed costs.                     coordinators responsible for the         concerns with the RMS system
                                          oversight of the RMS process.            outlined in Finding Number 2.

                                                                                   STATE RESPONSE: This issue
                                                                                   will be resolved with the
                                                                                   implementation of monitoring the
                                                                                   RMS as outlined in the response to
                                                                                   Finding Number 2.

                                                                                   AUDITOR’S CONCLUSION:
                                                                                   ODJFS’s planned corrective action,
                                                                                   when completed, will resolve this
                                                                                   issue. We will consider this issue
                                                                                   resolved when evidence of corrective
                                                                                   action has been submitted to ETA.




                                                           26
Audit of Ohio’s Workforce Investment Program



                                                                                           Exhibit B (Continued)

                           Assessment of Corrective Actions Taken by
                                 ODJFS on Issues Cited by ETA
                                                                                            OIG Assessment
    Issues Identified by ETA                        ODJFS Actions
                                                                                           As of October 2003
 b. Many costs included in the cost        The State is currently reviewing its     PENDING. Some costs noted during
    pools are not allowable WIA costs.     cost pool practices. If unallowable      our fieldwork were unallowable and
                                           WIA costs are noted and charged, we      charged to the costs pool. The
                                           will make the necessary adjustments      amount was immaterial and noted in
                                           to correct the situation.
                                                                                    our working papers. More needs to be
                                                                                    done to eliminated the charges of
                                                                                    unallowable cost to the cost pool.

                                                                                    STATE RESPONSE: ODJFS
                                                                                    continues to monitor expenditures to
                                                                                    ensure they are properly charged.
                                                                                    This process will continue.

                                                                                    AUDITOR’S CONCLUSION:
                                                                                    ODJFS’s planned corrective action,
                                                                                    when completed, will resolve this
                                                                                    issue. We will consider this issue
                                                                                    resolved when evidence of corrective
                                                                                    action has been submitted to ETA.
 7. Direct Charging of Certain Costs
 The State financial system does not       ODJFS is currently developing a          PENDING. Steps to resolve this issue
 have the ability to direct charge staff   policy that will require subrecipients   are in the planning stage. If ODJFS
 costs to appropriate grants and cost      to direct charge program and             follows through it should rectify this
 categories.                               administrative staff costs to the        issue.
                                           National Emergency Grants (NEG).
                                           NEG expenditures will no longer be
                                           captured through RMS once all            STATE RESPONSE: ODJFS has
                                           subrecipients are made aware of this     implemented this action. This issue is
                                           practice. Implementation of this         resolved.
                                           policy will be reflected in the NEG
                                           reports.                                 AUDITOR’S CONCLUSION:
                                                                                    We cannot make a valid assessment
                                                                                    without further audit work.
                                                                                    Therefore, ETA should assess ODJFS
                                                                                    financial system’s ability to direct
                                                                                    charge staff costs to appropriate grants
                                                                                    and cost categories.
 8. Performance Reporting System
 a. The State's Service Link system        Local areas and sub-areas are required   PENDING AS OF
    does not have the capability to        to record, track and report WIA          NOVEMBER 2002. ODJFS has
    produce Federal Participant            participant activity through             implemented a new participant
    quarterly and annual reports for       serviceLink/QuickLink. Some local        activity reporting system. Although
    WIA formula funds.                     areas and sub-areas are also using       ODJFS is still working to converted
                                           alternative methods. ODJFS is            files and certify their accuracy, we
                                           beginning a new reporting system,        believe that SPR validation of the data
                                           called SCOTI (Sharing Career             with no inconsistencies indicates that
                                           Opportunities and Training               the SCOTI is capable of producing
                                           Information), on July 1, 2003. SCOTI     accurate Federal Participant annual
                                           has the capacity to produce required     reports. Therefore, we believe this
                                           reports.                                 issues is now RESOLVED.




                                                            27
Audit of Ohio’s Workforce Investment Program



                                                                                       Exhibit B (Continued)

                         Assessment of Corrective Actions Taken by
                               ODJFS on Issues Cited by ETA
                                                                                        OIG Assessment
    Issues Identified by ETA                      ODJFS Actions
                                                                                       As of October 2003
 b. The State has not taken any steps    Monitoring reviews are done at the     COMPLETED. Action taken by the
    to ensure the quality and accuracy   local level by the State.              agency resolves this issue.
    of the data at the local level.
 9. One-Stop System
 a. Most of the One-Stop centers do      ODJFS is continuing to work with all   PENDING. Five of the LWIAs
    not include the required 19          local areas to ensure that MOUs and    comprehensive One-Stops still do not
    partners or 5 optional partners.     cost-sharing agreements are fully      have the required partners. This
                                         developed and compliant with WIA       issue is addressed in Finding
                                         requirements, including the required
                                                                                Number 6 of this report.
                                         partners’ provisions.
                                                                                STATE RESPONSE: ODJFS
                                                                                continues to resolve this issue and
                                                                                should be in compliance by
                                                                                July 30, 2004.

                                                                                AUDITOR’S CONCLUSION:
                                                                                ODJFS should continue to work
                                                                                diligently to resolve this issues as
                                                                                soon as possible. We will consider
                                                                                this issue resolved when evidence of
                                                                                corrective action has been submitted
                                                                                to ETA.
 b. The State has not issued basic       ODJFS has issued guidance for the      PENDING. The State has issued
    criteria for the structure and       structure and operation of its One-    some guidance including certification
    operation of its One-Stop Center     Stop Center system.                    requirements.
    system.
                                                                                STATE RESPONSE:
                                                                                ODJFS is conducting the One-Stop
                                                                                comprehensive certification process
                                                                                and is providing technical assistance
                                                                                to ensure that the One-Stop delivery
                                                                                system is appropriately implemented.
                                                                                The results of this action should be
                                                                                evident by July 30, 2004.

                                                                                AUDITOR’S CONCLUSION:
                                                                                ODJFS should continue to work
                                                                                diligently to resolve this issue as soon
                                                                                as possible. We will consider this
                                                                                issue resolved when evidence of
                                                                                corrective action has been submitted
                                                                                to ETA.




                                                          28
Audit of Ohio’s Workforce Investment Program



                                                                                        Exhibit B (Continued)

                         Assessment of Corrective Actions Taken by
                               ODJFS on Issues Cited by ETA
                                                                                         OIG Assessment
    Issues Identified by ETA                     ODJFS Actions
                                                                                        As of October 2003
 c. The One-Stop system does not        The State of Ohio will include as part   PENDING. This issue continues to
    facilitate coordination between     of the State Youth Plan a section that   be a problem for ODJFS.
    various youth service providers.    will outline how youth services will
                                        be coordinated under the WIA             STATE RESPONSE: ODJFS
                                        formula grant, Job Corps, and Youth      continues to work on this issue and
                                        Opportunity grant. For the beginning     will be submitting changes in our
                                        of Program Year 2003, Ohio will also     youth plan.
                                        develop guidance instructing local
                                        areas on strategies for coordinating     AUDITOR’S CONCLUSION:
                                        the formula WIA program with the         ODJFS should continue to work
                                        Job Corps Programs throughout the        diligently to resolve this issue as soon
                                        State and the Youth Opportunity          as possible. We will consider this
                                        Grant in the City of Cleveland.          issue resolved when evidence of
                                                                                 corrective action has been submitted
                                                                                 to ETA.
 10. Labor Exchange Service Delivery System
 The Local Operations Transition Plan   All State merit staff assigned to        NOT REVIEWED. This issue was
 does not meet WIA requirements.        Wagner-Peyser duties are now and         not examined by OIG because it dealt
                                        have always been required to use the     with legislation focusing on Wagner-
                                        Ohio Job Net (OJN) system which          Peyser requirements.
                                        meets all current DOL requirements.
 11. Labor Exchange Job Matching System
 Ohio Works system does not meet        At no time did the State of Ohio take    NOT REVIEWED. This issue was
 required needs or requirements.        down its Ohio Job Net (OJN) system.      not examined by OIG because it dealt
                                        Even while OhioWorks was active,         with legislation focusing on Wagner-
                                        State staff continued to use OJN for     Peyser requirements.
                                        all Wagner-Peyser activities. There
                                        was no reporting gap during the
                                        period that OhioWorks was in use.
 12. Memorandum of Understanding (MOU)
 a. Area #7 Board has not executed      LWIA #7 Board delegated                  UNRESOLVED. ODJFS has not
    any MOUs.                           requirement to the Workforce Policy      resolved this issue.
                                        Board. ODJFS will continue to work
                                        with LWIA #7 to ensure that MOUs         STATE RESPONSE: It is ODJFS’s
                                        and cost-sharing agreements are fully
                                                                                 opinion that this should not be
                                        developed with LWIA #7 Board
                                        required and optional partners.          incorporated in the report because
                                                                                 there is no requirement in the Act or
                                                                                 Regulations that requires sub-areas to
                                                                                 have MOUs. However, WIA MOUs
                                                                                 will be submitted March 29, 2004.

                                                                                 AUDITOR’S CONCLUSION:
                                                                                 ETA cited this as a deficiency in its
                                                                                 October 31, 2001 letter. ODJFS’s
                                                                                 planned corrective action, when
                                                                                 completed, will resolve this issue. We
                                                                                 will consider this issue resolved when
                                                                                 evidence of corrective action has been
                                                                                 submitted to ETA.
 b. LWIAs have executed MOUs that       LWIAs have redone their MOUs to          COMPLETED. Actions taken by the
    are merely hollow templates.        come into compliance with WIA            agency corrected this issue.
                                        requirements.




                                                         29
Audit of Ohio’s Workforce Investment Program



                                                                                          Exhibit B (Continued)

                          Assessment of Corrective Actions Taken by
                                ODJFS on Issues Cited by ETA
                                                                                           OIG Assessment
    Issues Identified by ETA                       ODJFS Actions
                                                                                          As of October 2003
 13. Poor Program Performance
 Ohio has met only 4 of 17 negotiated     In Program Year 2000, Ohio met or        PENDING. Some progress has been
 performance levels, and failed 11 of     exceeded 11 out of 17performance         made. However, ODJFS continues to
 the 17 WIA performance measures.         standards. In Program Year 2001,         experience problems in this area.
                                          Ohio met or exceeded 13 out of 17
                                          standards. Even through Ohio has
                                                                                   STATE RESPONSE: ODJFS is
                                          improved over the year, we feel that
                                          the standards we did not meet was a      implementing actions that will correct
                                          reporting issue rather than a            this deficiency. Those actions include
                                          performance issue.                       delegating staff to concentrate on
                                                                                   performance, negotiating performance
                                                                                   with the local level that reflects local
                                                                                   barriers, ensuring an adequate
                                                                                   reporting system and providing
                                                                                   technical assistance.

                                                                                   AUDITOR’S CONCLUSION:
                                                                                   ODJFS’s planned corrective action,
                                                                                   when completed, will resolve this
                                                                                   issue. We will consider this issue
                                                                                   resolved when evidence of corrective
                                                                                   action has been submitted to ETA.

 14. Unmet Service Needs and Unused Funds
 Ohio expended only 28% of its WIA        ODJFS is taking steps to assure funds    PENDING. Expenditures increased
 funds as of 9/30/01.                     are appropriately obligated and meet     to 65% as of the period ending
                                          the requirements of the WIA              June 2002.
                                          Regulations. Internal processes are
                                          being developed to assure that 80% of    STATE RESPONSE: ODJFS
                                          the funding is being obligated and       continues to work on its monitoring
                                          funds are being expended.                and reporting processes so that funds
                                                                                   are expended more timely.

                                                                                   AUDITOR’S CONCLUSION:
                                                                                   ODJFS’s planned corrective action,
                                                                                   when completed, will resolve this
                                                                                   issue. We will consider this issue
                                                                                   resolved when evidence of corrective
                                                                                   action has been submitted to ETA.

 15. Procurement
 The State must formally alert the WIA    Proper standards governing WIA           COMPLETED. Action taken by the
 network of the proper standards          procurement are being adhered to by      agency resolves this issue.
 governing WIA procurement                all level administering the WIA
 transaction.                             program.
 16. Eligible Training Provider Lists for Youth Service Providers
 a. The state has not disseminated a      Eligible youth training providers have   COMPLETED. Action taken by the
    list of eligible providers of youth   been disseminated throughout the         agency resolves this issue.
    activities.                           state.




                                                           30
Audit of Ohio’s Workforce Investment Program



                                                                                              Exhibit B (Continued)

                           Assessment of Corrective Actions Taken by
                                 ODJFS on Issues Cited by ETA
                                                                                              OIG Assessment
    Issues Identified by ETA                          ODJFS Actions
                                                                                             As of October 2003
 b. The eligible youth provider list on      The State is working with the local       UNRESOLVED. This problem still
    the state web site does not list         areas to ensure that all youth            exists.
    youth training providers for every       providers are submitted for this list.
    local workforce area.                    The updated list will be published on      STATE RESPONSE: This list has
                                             our website.                              been published and is reflective of all
                                                                                       information submitted to date. This is
                                                                                       also an area that is monitored.

                                                                                       AUDITOR’S CONCLUSION:
                                                                                       ODJFS’s planned corrective action,
                                                                                       when completed, will resolve this
                                                                                       issue. We will consider this issue
                                                                                       resolved when evidence of corrective
                                                                                       action has been submitted to ETA.
 c. The competitive award                    Each area and sub-area is required to     COMPLETED. Action taken by the
    requirements of Section 123 of the       competitively award the ten youth         agency resolves this issue.
    WIA have not been met.                   program elements. The Office of
                                             Research Assessment Accountability
                                             program and financial monitoring
                                             staff review the subareas to ensure
                                             that the youth program operators are
                                             competitively selected. Evidence of
                                             this is outlined in the monitoring
                                             reports.
 17. Monitoring and Oversight
 a. The State has not conducted              Monitoring reviews have been              COMPLETED. Action taken by the
    oversight and monitoring activities      conducted.                                agency resolves this issue.
    to safeguard Federal assets and
    ensure program performance and
    integrity, nor has it ensured that all
    local areas have fulfilled their
    WIA mandated monitoring and
    oversight functions.
 b. Fiscal and/or programmatic               Monitoring reports have been              COMPLETED. Action taken by the
    monitoring reports were issued in        finalized and sent to the field. This     agency resolves this issue.
    draft form only and were never           practice will continue.
    finalized.
 c. There is no indication that the          As part of the State’s monitoring         COMPLETED. Action taken by the
    State has ensured that all local         efforts, local areas are reviewed to      agency resolves this issue.
    areas have conducted monitoring          ensure that monitoring has been
    and oversight activities as required     conducted for their area. If an area is
    by WIA.                                  not in compliance with this
                                             requirement, a corrective action plan
                                             is developed and submitted to the
                                             State. The State monitors this plan to
                                             ensure that this does occur.
 18. Capacity Building
 The State has not developed, nor does       This issue was not examined by OIG.       NOT REVIEWED. This issue was
 it have a system to develop staff                                                     not examined by OIG because it dealt
 knowledge and expertise at the State                                                  with ODJFS’s staff knowledge base
 or local level.                                                                       and their experience in administering
                                                                                       WIA type programs.



                                                              31
Audit of Ohio’s Workforce Investment Program



                                                                                           Exhibit B (Continued)

                          Assessment of Corrective Actions Taken by
                                ODJFS on Issues Cited by ETA
                                                                                            OIG Assessment
    Issues Identified by ETA                         ODJFS Actions
                                                                                           As of October 2003
 19. System Communication
 The State does not have a statewide        The State has a statewide commun-         COMPLETED. Action taken by the
 communication system (LAN                  ication system to ensure local WIA        agency resolves this issue.
 network) to distribute information,        directors, entities administering the
 solicit comments, issue directives, etc.   WIA program and chief elected
                                            officials receive the same official
                                            information. The Bureau of Work-
                                            force Services maintains two e-mail
                                            accounts whereby individuals may
                                            submit questions regarding WIA
                                            programs and labor exchange
                                            services. The Office of Workforce
                                            Development maintains a database to
                                            ensure that individuals are notified of
                                            new and updated information posted
                                            on the websites.




                                                             32
Audit of Ohio’s Workforce Investment Program



                                                                               Appendix A

                               Background and Criteria

Workforce Investment Act

The Workforce Investment Act of 1998 (WIA), was designed to reform Federal job training
programs and create a new comprehensive workforce investment system. WIA superseded
the JTPA, amended the Wagner-Peyser Act, and contains the Adult Education and Family
Literacy Act and the Rehabilitation Act Amendments of 1998.

WIA's goal is to increase employment, retention, and earnings of participants, and in doing
so, improve the quality of the workforce to sustain economic growth, enhance productivity
and competitiveness, and reduce welfare dependency. In addition, the WIA is intended to be
customer-focused, to help Americans access the tools they need to manage their careers
through information and high quality services, and to help United States companies find
skilled workers.

Most WIA funds are provided through grants to the states for employment and training
programs. In order for states to be eligible to receive funds under WIA, a state plan had to
be submitted and be approved by the Secretary. During the PY 1999 plan approval process,
the Department utilized the Secretary’s transition authority to approve transition plans for
states that were not ready to fully implement the provisions of WIA. Under the Transition
Plan, states began to implement some of WIA’s provisions immediately, while waiting until
a later time to implement other provisions. On June 13, 2000, the Employment and Training
Administration (ETA) issued Training and Employment Guidance Letter Number 15-99
outlining steps to fully implement the required provisions for WIA. These steps were to be
implemented by July 1, 2000.

WIA Implementation in Ohio

With the passage of WIA and other Federal Legislation, the State of Ohio substantially
restructured its workforce governance and service delivery system. In 1999, the Ohio
Legislature enacted two bills that merged two departments (Ohio Bureau of Employment
Services (OBES) and Ohio Department of Human Services (ODHS)) to form Ohio
Department of Job and Family Services (ODJFS). ODJFS is responsible for administering
the WIA program.

To operate the WIA program and deliver services, Ohio established seven Local Workforce
Investment Areas (LWIA) in PY 2000. In PY 2001, Ohio reconfigured territories within
some LWIAs and increased the number of LWIAs to eight. Under the present LWIA
configuration, Ohio has seven conventional areas and a Strategic Option Area (see
Appendix C). The Strategic Option Area, consisting of 80 governmental entities




                                               33
Audit of Ohio’s Workforce Investment Program



                                                                 Appendix A (Continued)

(78 counties and two major cities), was considered an alternate mechanism of implementing
WIA. It was implemented as a single designated workforce area and encompassed sub-
areas composed of multi-county regional partnerships.

On October 31, 2001, the Chicago Regional ETA Office sent a letter to the ODJFS citing
40 issues of non-compliance and non-performance in operating the WIA program. ODJFS
began a series of corrective actions to address the deficiencies cited by ETA and provided
ETA with progress reports detailing its efforts to correct the areas of non-compliance and
non-performance. ODJFS also submitted targeted completion dates for compliance.

Ohio was authorized funding totaling $239.9 million to administer the WIA program for the
2-year period July 1, 2000 to June 30, 2002 (see Appendix D). Ohio reported expenditures
totaling $156 Million. WIA funding was awarded under program and fiscal year
appropriations, which overlap. WIA funds are multi-year funding and grantees have the
option to charge costs to multiple grants.

Criteria

We used the following criteria to perform this audit:

   •   Public Law 105-220, August 7, 1998, Workforce Investment Act of 1998;

   •   Part 652 and Parts 660 through 671 of CFR 20 (Workforce Investment Act; Final
       Rule);

   •    ETA Training and Employment Guidance Letters (TEGL), including TEGL 15-99,
       “Contingency Planning Options for State Plans under the Workforce Investment Act
       of 1998 and the Wagner-Peyser Act, Attachment I”;

   •   OMB Circular A-87 (Cost Principles for State, Local, and Indian Tribal
       Governments); and

   •   Part 97 of CFR 29 (Uniform Administrative Requirement for Grants and Cooperative
       Agreements to State and Local Governments).




                                               34
Audit of Ohio’s Workforce Investment Program



                                                                                Appendix B

                        Objectives, Scope, and Methodology

Objectives

Our objectives were to conduct a performance audit of Ohio’s compliance with critical
provisions of the WIA program, and to assess the corrective actions taken by Ohio to
address issues cited by ETA. We have defined “critical provisions” of WIA as the
“Elements of a Substantially Implemented WIA System” developed by ETA (TEGL 15-99,
Attachment I).

Scope and Methodology

The period audited was July 1, 2000 to June 30, 2002. We performed audit work at ODJFS
and two of its eight LWIAs. We selected LWIAs numbers 3 (City of Cleveland) and 7
(Strategic Option Area). Additionally, we selected two of LWIA Number 7 subareas
(subarea 7/36 and 7/53 “Montgomery and Meigs Counties”) to visit because of LWIA
Number 7 size and organizational structure. In making our selection of the LWIAs and
subareas, we considered geography (urban vs. rural) and other factors deemed relevant (i.e.,
conventional vs. non-conventional/Strategic Option).

For LWIAs and/or subareas that we did not visit, our evaluations were based on available
documentation at ODJFS, telephone contacts, or information faxed/emailed to us by the
applicable organization. Our assessment of corrective actions cited by ETA was limited to
40 of the 43 items ETA identified. Two of the three items were excluded because they dealt
mainly with legislation focusing on Wagner-Peyser requirements. The other dealt with
ODJFS’s staff knowledge base and their experience in administering WIA type programs.
We decided not to evaluate the staff’s expertise, instead focus on whether systems were in
place to administer the WIA program.

To assess Ohio’s WIA implementation and the status of its actions to correct deficiencies
reported by ETA, we interviewed ODJFS staff at the state and local level who administered
the WIA program. We also reviewed and analyzed the Governor/Secretary Agreement,
subrecipient agreements, financial records (e.g., general ledgers, financial status reports,
agency financial spreadsheets, etc.), program data, progress report submitted to ETA, the
State plan, local plans, and other relevant documents, including various policies and
procedures. We evaluated ODJFS’s ongoing and/or planned operations to assess its efforts
in administering the WIA program and complying with Federal requirements. Subsequent
to our fieldwork, we asked ODJFS to update the status of WIA implementation and actions
to correct deficiencies reported by ETA. Based on ODJFS’s input, we updated our
assessments in Exhibits A and B.




                                               35
Audit of Ohio’s Workforce Investment Program



                                                                     Appendix B (Continued)

As part of our audit planning, we conducted a vulnerability assessment of the financial
management, participant eligibility, and cost allocation. We assessed the vulnerability as
high because of numerous issues cited by ETA during monitoring visits.

Management Controls

Our work on established management controls included obtaining and reviewing policies
and procedures manuals, interviewing key personnel, and reviewing selected transactions to
observe controls in place. Our testing of management controls was focused only on the
controls related to our audit objectives of assessing compliance with critical provisions of
the WIA program and was not intended to form an opinion on the adequacy of management
controls overall, and we do not render such an opinion. Weaknesses noted in our testing are
discussed in the Findings 1, 2, and 3 of this report.

Compliance with Laws and Regulations

As a result of the vulnerability assessment, we performed attribute testing at each site visited
using both statistical and judgmental sampling. In order to determine compliance with laws
and regulations cited on page 32 of this report, we performed detailed tests of transactions
and tested a limited sample of participants who were enrolled in the program during our
audit period. Our detailed tests of transactions included both analytical review and
substantive tests of accounts. Our testing related to compliance with laws and regulations
was focused only on the laws and regulations relevant to our audit objectives of assessing
compliance with critical provisions of the WIA program and was not intended to form an
opinion on the compliance with laws and regulations as a whole, and we do not render such
an opinion. Instances of noncompliance are discussed in the Findings 4, 5, and 6 of this
report.

Sampling

When information was available in an electronic format, we selected transactions randomly.
Otherwise, judgmental sampling based on dollar amounts was used. We tested transactions
for quarters ending September 2000, June 2001 and March 2002, at all locations. We did
not intend our testing to be a representative sample and did not project to the entire universe
of financial transactions or participants. In addition, our selective testing was not designed
to express an opinion on Ohio’s financial status reports (FSRs) overall, and we do not render
such an opinion.

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards for
performance audits, issued by the Comptroller General of the United States. We conducted
fieldwork from May 20, 2002 to November 22, 2002, at the offices of ODJFS in Columbus



                                               36
Audit of Ohio’s Workforce Investment Program



and its subrecipients in the City of Cleveland, and Montgomery and Meigs Counties. We
updated our assessments in Exhibits A and B, based on ODJFS’s input, in October 2003.




                                               37
Audit of Ohio’s Workforce Investment Program



                                                                                         Appendix C

                                      State Of Ohio
                                Workforce Investment Areas

                                        Effective July 1, 2001




Areas 1, 2, 3, 4, 5, 6 and 8 are Ohio’s conventional local workforce investment areas.

The ‘7/’ prefix denotes the Ohio Option Area, which is Ohio’s 7th local workforce investment area. The
areas numbered 7/7 through 7/63 are the Ohio Option sub-areas.

Ohio has 8 Workforce Investment Areas. The Ohio Option Area includes 57 sub-areas for a total of 64
areas.

                                                                                         Updated 6/7/01
                                                                                                    lsd



                                                    38
Audit of Ohio’s Workforce Investment Program



                                                                                       Appendix D

              Summary of Financial Status Reports as of June 30, 2002

                                   Total           Net          Federal        Total       Percentage
                       Funding     Funds          Fund        Unliquidated    Federal       of Funds
        Program         Year     Authorized      Outlays      Obligations    Obligations   Expended

Statewide Activities   PY 2000     $9,297,410    $9,297,410             $0    $9,297,410        100%
Statewide Activities   FY 2001     $7,627,190    $4,155,616       $329,303    $4,484,919         54%
Statewide Activities   PY 2001    $10,568,203            $0             $0            $0          0%
Statewide Activities   FY 2002     $8,496,542            $0             $0            $0          0%
Total Statewide                   $35,989,345   $13,453,026       $329,303   $13,782,329         37%

Rapid Response         PY 2000     $2,559,902    $1,678,019       $170,042    $1,848,061         66%
Rapid Response         FY 2001     $5,151,104            $0             $0            $0          0%
Rapid Response         PY 2001     $2,134,063    $2,134,063             $0    $2,134,063        100%
Rapid Response         FY 2002     $5,718,044    $2,833,427             $0    $2,833,427         50%
Total Rapid Response              $15,563,113    $6,645,509       $170,042    $6,815,551         43%

Local Admin            PY 2000     $5,012,542    $4,930,350             $0    $4,930,350         98%
Local Admin            FY 2001     $3,806,964    $3,202,500             $0    $3,202,500         84%
Local Admin            PY 2001     $5,775,241    $4,360,963     $1,287,029    $5,647,992         76%
Local Admin            FY 2002     $4,242,903    $1,343,708     $1,796,102    $3,139,810         32%
Total Local Admin                 $18,837,650   $13,837,521     $3,083,131   $16,920,652         73%

Youth                  PY 2000    $31,849,726   $30,726,088             $0   $30,726,088         96%
Youth                  PY 2001    $38,731,693   $18,482,618    $20,249,075   $38,731,693         48%
Total Youth                       $70,581,419   $49,208,706    $20,249,075   $69,457,781         70%

Adult                  PY 2000     $7,184,548    $7,184,548             $0    $7,184,548        100%
Adult                  FY 2001    $22,481,056   $21,117,071             $0   $21,117,071         94%
Adult                  PY 2001     $8,457,323    $8,267,555      $189,768     $8,457,323         98%
Adult                  FY 2002    $25,835,152    $9,189,635     $7,886,251   $17,075,886         36%
Total Adult                       $63,958,079   $45,758,809     $8,076,019   $53,834,828         72%

Dislocated Worker      PY 2000     $6,078,601    $6,044,125             $0    $6,044,125         99%
Dislocated Worker      FY 2001    $11,781,619   $10,687,934             $0   $10,687,934         91%
Dislocated Worker      PY 2001     $4,788,159    $4,788,159             $0    $4,788,159        100%
Dislocated Worker      FY 2002    $12,350,975    $5,632,190     $6,718,785   $12,350,975         46%
Total DW                          $34,999,354   $27,152,408     $6,718,785   $33,871,193         78%

TOTAL                            $239,928,960 $156,055,979     $38,626,355 $194,682,334         65%




                                                39
Audit of Ohio’s Workforce Investment Program



                                                                         Appendix E

                               Acronyms/Abbreviations

CFR                        Code of Federal Regulations
CORe                       Central Office Reporting System
DOL                        U.S. Department of Labor
ETA                        Employment and Training Administration
FIFO                       First In First Out
FY                         Fiscal Year
FSR                        Financial Status Report
ITA                        Individual Training Account
JTPA                       Job Training Partnership Act
LWIA                       Local Workforce Investment Area
MOU                        Memorandum of Understanding
NEG                        National Emergency Grant
OBES                       Ohio Bureau of Employment Services
ODHS                       Ohio Department of Human Services
OIG                        Office of Inspector General
OJN                        Ohio Job Net
ODJFS                      Ohio Department of Job and Family Services
OMB                        Office of Management and Budget
PY                         Program Year
RMS                        Random Moment Sampling
SCOTI                      Share Career Operation Training Information
SPR                        Social Policy Research Associates
TEGL                       Training and Employment Guidance Letters
WIA                        Workforce Investment Act
WIB                        Workforce Investment Board




                                               40
Audit of Ohio’s Workforce Investment Program



                                                                                Appendix F

                          Ohio’s Response to Draft Report

In addition to the letter shown on the following page, ODJFS officials provided their
response to each finding as part of a copy of the entire report narrative. Therefore, we have
not provided the state’s response as an attachment. We have included their responses within
each finding in the report.

The grantee also provided a copy of Exhibit B, with its response to each issue. We’ve
included that narrative in our revised Exhibit B.




                                               41
Audit of Ohio’s Workforce Investment Program




                                               42
